App. 45
Supreme Court of Kentucky
2019-SC-0000093-MR
JERRY W. WELLS

APPELLANT

ON APPEAL FROM COURT OF APPEALS
CASE NO. 2018-CA-001467-OA
V. WARREN FAMILY COURT NO. 14-CI-00479
HON. CATHERINE HOLDERFIELD,
JUDGE, WARREN FAMILY COURT,
DIV. IV.
APPELLEE
AND
ROBBIN NELSON;
ROBERT ANDREW SHARP, JR.;
HEATHER ANNE GREENE SHARP;
A.K.S., A MINOR CHILD; AND
R.A.S. III, A MINOR CHILD
REAL PARTIES IN INTEREST
ORDER DENYING PETITION FOR
REHEARING AND SUA SPONTE
CORRECTING STYLE OF CASE
The Petition for Rehearing, filed by the Appellant,
of the Memorandum Opinion of the Court, rendered
October 31, 2019, is DENIED.
On the Court’s own motion, the Memorandum
Opinion of the Court is hereby corrected by the substi­
tution of a new Memorandum Opinion, attached
hereto, in lieu of the Memorandum Opinion as origi­
nally rendered. Said substitution is made to correct
the style of the case. This correction does not affect
the holding of the original Memorandum Opinion as

App. 46
rendered. Minton, C.J.; Hughes, Keller, Lambert,
VanMeter, and Wright, JJ., all concur. Nickell, J., not
sitting.
ENTERED: March 26, 2020
/s/ John Ellington
CHIEF JUSTICE

App. 47

COMMONWEALTH OF KENTUCKY
SUPREME COURT OF KENTUCKY
2019-SC-000093-MR
An Original Proceeding was Tendered on 2/8/2019 No­
tice of Appeal. A copy of the Original Proceeding is at­
tached.
PETITIONER
Cl#
COUNTY

Jerry Wells
14-CI-00479
WARREN
RESPONSE

The matter brought up with regard to a statement
in court that the undersigned may have stated at the
initial hearing in May of 2014 was not brought to the
attention of the Trial Court at any time prior to its
mention in the filings in the Supreme Court of Ken­
tucky. Had it been brought by appropriate motion to
the Trial Court, it would have been addressed by the
Trial Court. Mr. Wells was not a participant in the
hearing nor has he at any time been a party to the ac­
tion.
In an abundance of caution and to clarify, although
the pleading filed by Ms. Heather Sharp dated June 5,
2019 is titled “Real Party in Interest Heather Anne
Sharp’s Response on behalf of Judge Catherine Rice
Holderfield to Appellant’s Motion for Leave to File a
Motion to the Lower Court,” such was not filed on the
undersigned’s behalf with any knowledge of or author­
ity given by the undersigned and it is believed that
such title was inadvertently misleading likely without

App. 48
intention to mislead. The undersigned has not dis­
cussed this action or any related action with any party
to the action nor with counsel for any party, nor with
Mr. Wells who is not a party, without the presence of
the parties or recorded proceedings if a party failed to
appear).
I have attached the following:
1.

The Notice of Appeal;

2.

Appellant’s “Motion for Leave of the Court to
File a Motion to the Lower Trial Court for Cor­
rection of the Record, Specifically the Decree
of the Order of May 15,2014, and for Leave to
File an Amended Appellee’s Brief Following
Correction of the Lower Court Records;” and

3.

Appellee’s “Real Party in Interest Heather
Anne Sharp’s Response on Behalf of Judge
Catherine Rice Holderfield to Appellant’s Mo­
tion for Leave to File Motion to the Lower
Court”
NOTE TO RESPONDENT

Please fill in the blanks, date, sign and return. In­
clude a copy of any order to which you have referred.
June 11, 2019
Date

/s/ Catherine Rice Holderfield
Respondent / Judge

App. 49
COMMONWEALTH OF KENTUCKY
COURT OF APPEALS
ACTION NO. 20I8-CA-0014670A
ORIGINAL ACTION ARISING FROM
WARREN CIRCUIT FAMILY COURT
ACTION 14-CI-00479
JERRY W. WELLS

PETITIONER

NOTICE OF APPEAL
TO KENTUCKY SUPREME COURT
VS.
CATHERINE RICE
HOLDERFIELD JUDGE,
WARREN FAMILY COURT,
DIVIV.

RESPONDENTS

AND
ROBIN NELSON
REAL PARTIES
ROBERT ANDREW SHARP, JR
IN INTEREST
HEATHER ANNE GREEN SHARP
A.K.S., A MINOR CHILD
R.A.S., III, A MINOR CHILD
Pursuant to CR76.36(7)(a), and in conformity with
the requirement of CR 73.03, notice is hereby given
that the pro se Petitioner, Dr. Jerry W. Wells, hereby
appeals the January 9,2019 Order Denying Motion for
Reconsideration and Extraordinary Writ of Prohibi­
tion/Mandamus.

App. 50
1.

The Appellant is Dr. Jerry W. Wells.

2.

The trial court judge is Catherine Rice
Holderfield, Judge, Warren Circuit Family
Court, Division IV.

3.

The names of the real parties in interest are:
Robbin Nelson, Robert Andrew Sharp Jr,
Heather Anne Greene Sharp, A.K.S., a minor
child, and R.A.S.III, a minor child.

4.

Counsel for real parties in interest are identi­
fied on the Certificate of Service, incorporated
herein by reference.

5.

Petitioner appeals from the Order and Opin­
ion of the Kentucky Court of Appeals entered
on January 9,2019, denying Appellants emer­
gency petition of his right to intervene and be
declared De Facto Custodian in the circuit
court case before final adjudication of a modi­
fication of custody hearing which was held Oc­
tober 12, 2018, from the Court’s opinion
regarding jurisdiction of the Warren Circuit
Family Court, Division IV in this matter, and
the failure of the Kentucky Court of Appeals
to address erroneous discovery rulings and
matters of recusal by the lower court.

6.

A copy of the Court of Appeal’s Order Denying
Motion for Reconsideration and Extraordi­
nary Writ, dated January 9, 2019, from which
this appeal is being taken, is attached hereto
as Exhibit “A,” with a copy of the Court of Ap­
peal’s Order Denying Motion For Intermedi­
ate Relief, dated October 8, 2018 as Exhibit
“B.”

App. 51
February 7, 2019

Respectfully submitted,
/s/ Jerry W. Wells
Jerry W. Wells (pro-se)
PO Box 159175
Nashville, TN 37215
Phone:270-392-0461
welljw@aol.com

CERTIFICATE OF SERVICE
The undersigned herby states that a true and cor­
rect copy of the foregoing was sent via U.S. mail, post­
age paid, facsimile transmission, email, or hand
delivery this 7th day of February 2019, to the follow­
ing:
Catherine Rice Holderfield, Judge
Warren Circuit Court, Div. IV. Family Court
Warren County Justice Center
1001 Center Street, Suite 303
Bowling Green, KY 42101
Fax: (270) 746-7147
beckycohron@kycourts.net
kimiller@kycourts.net
Hon. D. Bailey Walton, Esq.
1131 Fairway Street, Ste. 3
Bowling Green, KY 42103
COUNSEL FOR REAL PARTY IN INTEREST,
ROBBIN NELSON
Fax: (270) 782-1357
dbwlaw@bellsouth.net

App. 52
Hon. Kenneth A. Meredith II., Esq.
316 Main Street
P.O. Box 194
Bowling Green, KY 42102-0194
COUNSEL FOR REAL PARTY IN INTEREST,
ROBERT A. SHARP, JR.
Fax: (270) 783-0681
kenmeredithii@gmail .com
Casey Hixson, Esq.
511 East Tenth Avenue
Bowling Green, KY 42101
COUNSEL FOR REAL PARTY IN INTEREST,
HEATHER SHARP
Fax: (270) 780-9487
caseycaseyhixson.com
/s/ Jerry W. Wells
Jerry W. Wells, (pro-se)

App. 53
COMMONWEALTH OF KENTUCKY
SUPREME COURT OF KENTUCKY
2019-SC-000093
JERRY W. WELLS

APPELLANT

v.
MOTION FOR LEAVE OF THE COURT
TO FILE A MOTION TO THE LOWER TRIAL
COURT FOR CORRECTION OF THE RECORD.
SPECIFICALLY THE DECREE OF THE OR­
DER OF MAY 15. 2014. AND FOR LEAVE TO
FILE AN AMENDED APPELLEE’S BRIEF
FOLLOWING CORRECTION OF THE
LOWER COURT RECORDS
CATHERINE RICE HOLDERFIELD

APPELLEE

ROBBIN NELSON,
ROBERT SHARP, JR.,
HEATHER SHARP,
ON APPEAL FROM THE KENTUCKY COURT
OF APPEALS, NO. 2018-CA-001467 WARREN
CIRCUIT COURT FAMILY COURT, DIV. IV
No. 14-CI-00479
CERTIFICATION
The undersigned does hereby certify that true and ac­
curate copies of this notice/motion were sent by US
Mail, postage prepaid this the 23rd day of May, 2019 to

App. 54
the following: Catherine Rice Holderfield, Judge, War­
ren Circuit Family Court, Div., IV 1001 Center Street,
Bowling Green, KY 42101, Kenneth A. Meredith II, 316
E Main Ave., Bowling Green, KY 42101, D. Bailey Wal­
ton, 1131 Fairway St, Ste 3, Bowling Green, KY 42103,
Casey Hixson, 511 East Tenth Ave., Bowling Green, KY
42101,Samuel Givens, Clerk, Kentucky Court of Ap­
peals, 360 Democrat Drive Frankfort, KY 40601.
/s/

Jerry W. Wells
Dr. Jerry W. Wells pro se Appellant
PO Box 159175
Nashville, TN 37215
270-392-0461

MOTION FOR LEAVE OF COURT
Appellant Dr. Jerry W. Wells, respectfully request
and moves this Honorable Court for leave to file a Mo­
tion with the lower trial court, pursuant to CR 60.01
for correction of the record, and for leave to file an
amended brief after correction of the lower court’s or­
der. For the reasons set forth in the accompanying
Memorandum, Appellant respectfully request that this
Court grant it leave to have the lower court correct the
record because it will clarify and resolve one (1) issue
of dispute between the parties, will not cause any prej­
udice to the Appellee or the real parties in interest,
preserves the Appellant’s substantial rights in the
lower trial court, the Court of Appeals as well as this
Honorable Court and substantially impacts the appli­
cation of the rule of law in this action in consideration
of the other four (4) issues before this Honorable Court.

App. 55
Respectfully submitted, this 23rd day of May,
2019.
/s/

Jerry W. Wells
Dr. Jerry W. Wells pro se Appellant
PO Box 159175
Nashville, TN 37215
270-392-0461

MEMORANDUM IN SUPPORT
OF LEAVE OF COURT
Comes the Appellant,pro se, and for his Memoran­
dum of law in support of its Motion for Leave of Court,
states as follows:
INTRODUCTION
Appellant, Jerry W. Wells, while recently review­
ing the court recordings of the hearings regarding the
lower court case from which this appeal is taken, Case
No. 14-CI-00479, recognized the lower Court’s Order
entered May 15, 2014, following the May 6, 2014 hear­
ing, contains an omission from the judgement of the
court. The omission was not the product of judicial
reasoning and determination. It was a clerical error,
specifically, the Decree within the Order mistakenly
omits the court’s findings of Appellant’s De Facto Cus­
todian status and custody of the minor children after
having ruled and stating on the record (1:44:11), “And
so I’m going to grant the de facto custodian status to
you and your husband and also permanent custody
at this time.” Appellant submits that his rights are

App. 56
substantially impacted by this omission, and he is
entitled to have this mistake corrected as a matter of
law.
ISSUES
The case presently before this Honorable Court
contains five (5) main issues:
The inappropriate use of a forward related order
by the Court of Appeals,
The question of jurisdiction,
The appropriateness of a writ of prohibition/man­
damus,
Unethical conduct by Casey Hixson and other par­
ties including ex parte communications, making
false statements to the court about the facts of the
matter, writing false statements in orders, fraud
on the court, and
Appellant’s “standing” with the Court. The correc­
tion of the lower court record completely resolves
the issue of Appellant’s standing and directly and
substantially impacts the application of law in the
remaining other four (4) issues.
STATEMENT OF THE CASE
Appellee’s counsel Casey Hixson, as well as the
lower court judge has taken the position Appellant has
no standing in the lower court Case No. 14-CI-00479
and this stance significantly impact Appellant’s rights
in all issues presently before this Honorable Court.

App. 57
This position by Appellee’s counsel and the lower court
is wrong as it is contradicted by the lower court’s very
own findings of judicial reasoning and determination
during the hearing of May 6, 2014, whereby the lower
court recognized the status of Appellant and ruled
stating on the record (1:44:11), “And so I’m going to
grant the de facto custodian status to you and your
husband and also permanent custody at this time,”
The Decree of the Order of the lower court mistakenly
omits the judicial findings of Appellant’s De Facto Cus­
todian status and custody of the minor children. Appel­
lant is entitled to have this mistake corrected as a
matter of law and cannot do so without leave of this
Honorable Court.
CORRECTION OF CLERICAL
MISTAKE STANDARD
CR 60.01 states:
Clerical mistakes in judgments, orders or
other parts of the record and errors therein
arising from oversight or omission may be cor­
rected by the court at any time of its own ini­
tiative or on the motion of any party and after
such notice, if any, as the court orders. During
the pendency of an appeal, such mistakes may
be so corrected before the appeal is docketed
in the appellate court, and thereafter while
the appeal is pending may be so corrected
with leave of the appellate court.
There is no question about the trial court’s author­
ity to enter the amended judgment pursuant to CR

App. 58
60.01. In Potter v. Eli Lilly and Company, Ky., 926
S.W.2d 449 (1996) the court wrote: We are well aware
that CR 60.01 allows a trial court to correct clerical
mistakes in its judgments and errors therein arising
from an oversight or omission at any time on its own
initiative. We do not believe CR 60.01 invests the trial
court with either jurisdiction or authority to make sub­
stantive changes in a judgment. The effect of the rule
is limited to mistakes that are clerical in nature.”
In Buchanan v. West Kentucky Coal Company, Ky.,
218 Ky. 259,291 S.W. 32,35 (1927) the court wrote: The
distinction between clerical error d judicial error does
not turn on whether the correction of the error results
in a substantive change in the judgment. Rather, the
distinction turns on whether the error “was the delib­
erate result of judicial reasoning and determination,
regardless of whether it was made by the clerk, by
counsel, or by the judge.” The court further wrote: “A
clerical error involves an error or mistake made by a
clerk or other judicial or ministerial officer in writing
or keeping records.” 46 Am.Jur.2d, Judgments § 167.
There is therefore no dispute the CR 60.01 grants
the authority of a trial court to correct the lower omis­
sion of the lower court’s findings of Appellant’s De
Facto Custodian status and custody of the minor chil­
dren upon a motion of any party; however, the Motion
by Appellant cannot be submitted to the lower court
without leave of this Honorable Court.

App. 59
REQUEST FOR RELIEF
For all of the foregoing reasons, pro se Appellant
respect fully requests that this Honorable Court grant
leave of court to submit a CR 60.01 Motion to the lower
court to correct the Decree of the Order of May 15,
2014, regarding his status of De Facto Custodian and
custody of the minor children and to grant leave of
court to amend his Brief in this matter following the
correction of the Decree of the May 15, 2014 Order by
the lower court.
05/23/19

Respectfully submitted,
/s/Jerry W. Wells

App. 60
COMMONWEALTH OF KENTUCKY
SUPREME COURT OF KENTUCKY
CASE NO. 2019-SC-000093-MR
JERRY W. WELLS

APPELLANT

v.
REAL PARTY IN INTEREST HEATHER ANNE
SHARP’S RESPONSE ON BEHALF OF JUDGE
CATHERINE RICE HOLDERFIELD TO APPEL­
LANT’S MOTION FOR LEAVE TO FILE A
MOTION TO THE LOWER COURT
HON. CATHERINE RICE
HOLDERFIELD, JUDGE,
WARREN FAMILY COURT,

APPELLEE

ROBBIN NELSON,
ROBERT ANDREW
SHARP, JR. HEATHER
ANNE GREENE SHARP,
A.K.S., A MINOR CHILD,
AND R.A.S. III, A MINOR
CHILD
REAL PARTIES IN INTEREST
Comes Real Party in Interest, Heather Anne
Green Sharp (hereinafter “Heather”), by counsel, and
provides the following Response to Appellant’s Motion
for Leave of the Court to File a Motion to the Lower
Trial Court for Correction of the Record, Specifically
the Decree of the Order of May 15,2014, and for Leave
to File an Amended Appellee’s Brief Following Correc­
tion of the Lower Court Records on behalf of Judge
Catherine Rice Holderfield:

App. 61
The Appellant is not a party to the underlying ac­
tion. In his latest attempt to become a party, Appellant
cites CR 60.01 alleging that the Trial Court made a
clerical error which denied him the status of a party.
Simply, that argument fails.
CR 60.01 provides:
Clerical mistakes in judgments, orders or
other parts of the record and errors therein
arising from oversight or omission may be cor­
rected by the court at any time of its own ini­
tiative or on the motion of any party and after
such notice, if any, as the court orders. During
the pendency of an appeal, such mistakes may
be so corrected before the appeal is docketed
in the appellate court, and thereafter while
the appeal is pending may be so corrected
with leave of the appellate court.
The rule does not permit substantive changes to a
judgment. See Potter v. Eli Lilly & Go., 926 S.W.2d 449
(Ky. 1996), abrogated on other grounds in Hoskins v.
Maricle, 150 S.W.3d 1 (Ky. 2004).
Appellant argues that on May 6, 2014, the Trial
Court made a clerical error when the Court stated “I’m
going to grant the De Facto Custodian status to you
and your husband . . . ”. CVR: 05/06/2014; 14411, 14CI-00479). That was not a clerical error, but likely an
error in wording. The Trial Court’s wording does not
confer Appellant the status of a party.
The Appellant fails to cite or discuss Jude v. Morwood Sawmill, Inc., 726 S.W.2d 324 (Ky. App. 1987). In

App. 62
that case, a judgment was entered against one of the
Defendants. The Court, on its own motion, attempted
to correct the judgment and stated it was the intent of
the Court for the word “Defendant” to be “Defendants”.
“The rule cannot be used to enter judgment against a
Defendant who was omitted from the original judg­
ment.” Id. at 326 citing Stradley v. Cortez, 518 F.2d. 488
(3rd Cir. 1975).
Unquestionably, the Appellant has never been a
party. He was not included as a Petitioner and this has
no standing. The written judgment only mentions and
applies to Appellant’s wife, Robbin Nelson. The record
is void of any intent of any of the parties to grant a
judgment in favor of the Appellant. Apparently, the
language utilized by the Trial Court was surplusage
and has no effect.
Wherefore, Heather Anne Green Sharp, on behalf
of Judge Catherine Rice Holderfield, respectfully re­
quests this Court to deny the Appellant’s Motion.
Respectfully submitted this the 5 day of June.
2019.
/s/ [Illegible]
Casey A. Hixson
HIXSON LAW OFFICE
511 East Tenth Avenue
Bowling Green, KY 42101
Phone: 270/780-9655
Facsimile: 270/780-9487
Email: casey@caseyhixson.com
Web Site: www.caseyhixson.com

App. 63
CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of the
foregoing pleading was sent via U.S. Mail, on this the
5 day of June. 2019, addressed to the following:
Hon. Catherine Rice Holderfield, Judge
Warren Circuit Court, Div. IV
Family Court
Warren County Justice Center
1001 Center Street, Suite 303
Bowling Green, KY 42101
D. Bailey Walton
WALTON LAW
1131 Fairway Street
RO. Box 128
Bowling Green, KY 42102-0128
Kenneth Meredith
316, E. Main Avenue
Bowling Green, KY 42101
Jerry Wells
P.O. Box 159175
Nashville, TN 37215
/s/ [Illegible]
Casey A. Hixson

App. 64
03/16/2017 20:03

FAX

To: The Covenant School
Fax number: 615-467-2315
From: Theresa Roberts, Secretary
Fax number: 270-842-3188

Dishman McGinnis
Date: 3-23-17
Elementary
School
Pages:
1
(including cover)
Bowling Green Dishman McGinnis Elementary
School
[LOGO]
375 Glen Lily Road
City Schools
Bowling Green, Kentucky 42101
Office: (270)746-2250
Fax: 270-842-3188
[Jennifer —► person I talked to]
Request for Student Records
Adrianna Sharp
Student Name

1
Grade

Robert Sharp III (Drew)
Student Name

Pre School
Grade

Student Name

Grade

Please fax immunization records
at your earliest convenience.

App. 65
TO KATHERINE KOONCE, 615-467-2315
FROM DICK KOONCE
THIS IS A FAX FROM ME TO YOU
LET ME KNOW IF YOU RECEIVE IT - LET ME
KNOW IN ADVANCE IF YOU WANT TO FAX TO ME
TO TEST THE WAY IT WORKS

App. 66
COMMONWEALTH OF KENTUCKY
IN THE CIRCUIT COURT OF WARREN COUNTY
FAMILY COURT
DIVISION IV
CASE NO. 14-CI-00479
ROBBIN NELSON

PETITIONER

VS.
ROBERT ANDREW SHARP, JR.

RESPONDENT

HEARING
MAY 6, 2014
1:35 PM.
BEFORE THE HONORABLE
CATHERINE RICE HOLDERFIELD
INDEX
COLLOQUY..........................................................

4

ROBBIN NELSON EXAMINATION BY MR.
MCCRACKEN...................................................

5

COLLOQUY..........................................................

10

APPEARANCES
FOR THE
PETITIONER:

MR. JOHN MCCRACKEN
JOHN H. MCCRACKEN AND
ASSOCIATES, PLLC
941 LEHMAN AVENUE #103
BOWLING GREEN, KY 42103

App. 67
[4] (THE FOLLOWING PROCEEDINGS WERE
HELD:)
MR. MCCRACKEN: MOTION TO SUBMIT,
YOUR HONOR. WE HAVE A - IT’S - GRANDPAR­
ENTS GETTING THE COURT: RIGHT.
MR. MCCRACKEN: - CUSTODY OF THE COURT: I DO NEED TO TAKE SOME
BRIEF PROOF. DO YOU HAVE THEM HERE TO­
DAY?
MR. MCCRACKEN: I DO. I HAVE HER.
THE COURT: OKAY.
MR. MCCRACKEN: NOW, THE OTHERS
ARE NOT HERE. AND - BUT I’LL BE GLAD TO DO
WHATEVER YOU WANT.
THE COURT:
MR.

IS - IS MS. NELSON?

MCCRACKEN: MS.

NELSON

IS

HERE.
THE COURT: UH-HUH.
MR. MCCRACKEN: SHE’S GRANDMA GRANDMOTHER.
THE COURT: AND ARE THE SHARPS THEY ARE AWARE OF TODAYS HEARING?
ROBBIN NELSON: YES.

App. 68
MR. MCCRACKEN: THEY - THEY ARE.
YES, YOUR HONOR.
ROBBIN NELSON: YES.
THE COURT: OKAY.
MR. MCCRACKEN: WE HAVETHE COURT: OKAY. THEN, ROBBIN NEL­
SON, I’LL [5] JUST ASK YOU TO RAISE YOUR
RIGHT HAND, PLEASE. DO YOU SOLEMNLY
SWEAR OR AFFIRM THAT THE TESTIMONY YOU
GIVE TODAY WILL BE THE TRUTH, THE WHOLE
TRUTH, AND NOTHING BUT THE TRUTH SO
HELP YOU GOD?
ROBBIN NELSON: IDO.
THE COURT: YOU’LL NEED TO SPEAK
UP A LITTLE BIT.
ROBBIN NELSON: I DO.
THE COURT: OKAY. GO AHEAD, MR.
MCCRACKEN.
EXAMINATION
BY MR. MCCRACKEN:
Q. AND WHAT IS YOUR NAME, PLEASE?
A. IT’S ROBBIN NELSON.
Q. AND WHERE DO YOU LIVE, ROBBIN NEL­
SON?

App. 69
A. I’M AT 2076 CHESAPEAKE DRIVE HERE
IN BOWLING GREEN.
Q. ARE YOU MARRIED?
A. YES.
Q. AND WHO ARE YOU MARRIED TO?
A. DR. JERRY WELLS.
Q. AND DO YOU HAVE ATHE COURT: YEAH. YOU’RE GOING TO
HAVE TO SPEAK UP A LITTLE BIT.
MR. MCCRACKEN: YEAH. YOU’RE GO­
ING TO HAVE TO [6] TALK A LOT LOUDER. I’M
SORRY.
THE COURT:
YOUR VOICE.

IT’S NOT RECORDING

ROBBIN NELSON: ALL RIGHT.
A. I’M MARRIED TO DR. JERRY WELLS. HE’S
HERE WITH ME.
Q. AND DO YOU HAVE A SON NAMED ROB­
ERT ANDREW SHARP, JR.?
A. IDO.
Q. AND WHAT IS YOUR DAUGHTER-INLAW’S NAME?
A. HEATHER ANNE GREENE SHARP.

App. 70
Q. OKAY. DO THEY HAVE ANY CHILDREN
TOGETHER?
A. THEY HAVE TWO CHILDREN.
Q. AND ARE YOU - HAVE YOU SIGNED A AN AGREEMENT, A CUSTODY AGREEMENT WITH
- BETWEEN YOURSELF, YOUR SON ROBERT AN­
DREW SHARP, JR., AND YOUR DAUGHTER-INLAW HEATHER ANNE SHARP REGARDING CUS­
TODY OF THOSE CHILDREN?
A. THAT IS CORRECT. WE - WE HAVE - HAD
REACHED AN AGREED ORDER FOR ME TO TAKE
CUSTODY OF THE CHILDREN.
Q. AND, IF YOU WOULD, JUST BRIEFLY
TELL THE COURT, HOW LONG HAVE THESE
TWO CHILDREN LIVED WITH YOU - PHYSICALLY
LIVED WITH YOU?
A. THE GRANDDAUGHTER HAS BEEN WITH
US SINCE SHE WAS FOUR WEEKS OLD. AND THE
LITTLE BOY HAS BEEN WITH US SINCE HE WAS
SIX WEEKS OLD.
[7] Q. AND HOW OLD ARE THEY NOW?
A. THE GRANDDAUGHTER IS FOUR YEARS
OF AGE. AND OUR GRANDSON IS TWO YEARS OF
AGE.
Q. OKAY. NOW, SO THE COURT WILL UN­
DERSTAND WHY WE’RE HERE TOO EVEN BET­
TER, YOUR SON, DOES HE HAVE ANY MEDICAL
CONDITIONS?

App. 71
A. YES, HE DOES.
Q. AND WHAT - BEST DESCRIBE, IF YOU
CAN, WHAT’S GOING ON WITH HIM.
A. MY SON HAS A CONDITION THAT IS RE­
FERRED TO AS REVERSE NARCOLEPSY AND
CATAPLEXY. AND THAT ESSENTIALLY MEANS
THAT HE IS UNABLE TO FALL ASLEEP WITHOUT
MEDICATION. AND THE CATAPLEXY PORTION
OF THAT IS THAT HE HAS SLEEP PARALYSIS.
THIS REQUIRES MEDICATION. ONCE HE
TAKES THE MEDICATION, HE IS RENDERED IN­
CAPACITATED AND IS NOT ABLE TO CARE FOR
HIMSELF, LET ALONE THE CHILDREN.
Q. NOW, JUST SO THE JUDGE WILL KNOW
WHY YOU’RE SAYING THIS, WHAT IS - DO YOU
HAVE A DEGREE IN A. I’M A REGISTERED NURSE.
Q. OKAY. NOW, AS FAR AS YOUR DAUGH­
TER-IN-LAW A. MY DAUGHTER-MY DAUGHTER-IN-LAW
HAD SUFFERED SOME SORT OF HEAD INJURY
EARLIER IN HIGH SCHOOL, AND THEN SHE
ALSO SUFFERED FROM POSTPARTUM DEPRES­
SION AFTER THE BIRTH OF THE CHILDREN.
[8] AND SO, SHE HAS SIGNIFICATION DE­
PRESSION. IS ALSO NOT ABLE TO REALLY AP­
PROPRIATELY CARE FOR THE CHILDREN.

App. 72
Q. OKAY. AND JUST FOR THE RECORD,
WE’RE NOT HERE TO SAY ANYTHING - WE’RE
NOT HERE TO SAY ANYTHING GOOD OR BAD
ABOUT EITHER ONE OF THESE PARENTS.
A. NO.
Q. YOU’RE JUST HERE TO HELP AND A. THAT IS CORRECT. WE - WE WOULD
LOVE TO SEE THESE - THESE PARENTS HAVE A
REVERSAL WITH THEIR MEDICAL CONDITIONS.
THEY ARE SEEKING MEDICAL CARE.
MY SON SEES A SPECIALIST IN NASHVILLE.
THEY ARE CHANGING AND EVALUATING HIS
MEDICATION. AND MY DAUGHTER-IN-LAW IS
ALSO WORKING WITH A PHYSICIAN TO GET
SOME HELP AND SOME MEDICATION.
Q. OKAY. AND HAVING THIS CUSTODY
AGREEMENT, WILL THAT HELP YOU WITH LE­
GAL MATTERS, SUCH AS SCHOOL, DOCTORS,
THOSE TYPE OF THINGS?
A. IT WILL. AS A MATTER OF FACT, I JUST
GOT A CALL TODAY WHERE A PHYSICIAN NEEDS
SOME INFORMATION - OR THE SCHOOL NEEDS
INFORMATION, AND I DON’T HAVE THE LEGAL
ABILITY TO GO GET IT.
AND I NEED TO - OUR - OUR GRANDDAUGH­
TER IS ENROLLED AT THE BOWLING GREEN
CHRISTIAN ACADEMY. AND THE GRANDSON
WILL ALSO BE ENROLLED THERE THIS FALL.

App. 73
AND THEY [9] NEED BIRTH CERTIFICATES, AND
THAT SORT OF THING.
AND I REQUESTED IT FROM THE PARENTS,
BUT THEY HAVEN’T BEEN ABLE TO PRODUCE IT
YET
Q. OKAY NOW, AS FAR AS CHILD SUPPORT,
YOU’RE NOT ASKING FOR CHILD SUPPORT, ARE
YOU?
A. WE ARE NOT ASKING FOR CHILD SUP­
PORT WE ARE FINANCIALLY HELPING MY SON
AND MY DAUGHTER-IN-LAW AT THIS TIME.
Q. AND YOU HAVE SUFFICIENT INCOME
FROM WHICH TO PROVIDE FOR THESE CHIL­
DREN’S NEEDS?
A. WE DO, YOUR HONOR. WE HAVE SUFFI­
CIENT INCOME TO PROVIDE FOR BOTH OF
THEIR NEEDS.
MR. MCCRACKEN: I CAN BE GLAD TO
GIVE YOU A FLOOR (SIC), WHICH USUALLY
STATES IT ABOVE, IF YOUR HONOR WOULD
LIKE. WE HAVEN’T FILLED OUT AN AOC-152 AT
THIS POINT. BUT I WILL BE GLAD TO DO SO AS
FAR AS THE COURT: OKAY. I JUST NEED THE
INFORMATION REQUIRED IN THE STATUTE UN­
DER 403.270. AND SO - FOR THE DE FACTO.

App. 74
Q. OKAY. AND THE - HAVE THE CHILDREN
- BOTH CHILDREN LIVE WITH YOU FOR IN EX­
CESS OF ONE YEAR?
A. YES, MA’AM. THEY HAVE.
Q. HAVE THEY LIVED WITH YOU CONTINU­
OUSLY IN EXCESS OF ONE YEAR?
A. YES, YOUR HONOR. THEY HAVE.
[10] Q. AND HAS ANYONE - ANY OF THE
CHILDREN - YOUR CHILDREN OR ANY OTHER
PERSON FILED FOR ANY TYPE OF CUSTODY
PROCEEDING RELATED TO THESE CHILDREN IN
THE PAST ONE YEAR?
A. NO, YOUR HONOR.
Q. AND HAVE YOU-ALL PROVIDED - OR
WHO HAS PROVIDED THE FINANCIAL STABIL­
ITY FOR THESE TWO CHILDREN?
A. MY HUSBAND AND I.
Q. IN THE PAST YEAR?
A.

SINCE THEIR BIRTH.

Q. OKAY. AND WHO HAS PROVIDED FOR
THEIR EMOTIONAL AND PHYSICAL WELL
NEEDS?
A. WELL, MY HUSBAND AND I HAVE PRO­
VIDED FOR THAT, YOU KNOW. WE COME TO­
GETHER. I MEAN, THEY TRY - WE TRY TO
INCLUDE THE PARENTS AS MUCH AS WE CAN.

App. 75
BUT THEY’RE MAINLY WITH MY HUSBAND AND
I.
MR. MCCRACKEN: ANY OTHER INFOR­
MATION REGARDING THE COURT: WHO - WHO HAS BEEN
THE PRIMARY CAREGIVERS FOR THE TWO CHIL­
DREN FOR AT LEAST A YEAR?
THE WITNESS: I HAVE BEEN, YOUR
HONOR.
THE COURT: OKAY. AND WHO HAS
BEEN THE PRIMARY FINANCIAL SUPPORTER
FOR THE - THOSE TWO?
THE WITNESS: WELL, I HAVE AS ALONG WITH MY HUSBAND.
[11] THE COURT: OKAY. AT LEAST A
YEAR?
THE WITNESS: YES, MA’AM.
THE COURT: OKAY. AND ARE YOU
AWARE OF ANY CUSTODY ACTIONS THAT HAVE
BEEN FILED REGARDING THESE CHILDREN
OTHER THAN THIS ONE?
THE WITNESS: NO.
THE COURT: OKAY.
THE WITNESS: NO OTHER CUSTODY
ACTIONS HAVE BEEN FILED.

App. 76
THE COURT: AND THEN YOU’RE ALSO
ASKING - ARE YOU ASKING TODAY FOR PERMA­
NENT CUSTODY AS WELL AS DE FACTO?
MR. MCCRACKEN: THAT IS CORRECT,
YOUR HONOR.
THE COURT: AND THE - AND WHY DO
YOU BELIEVE IT’S IN THE BEST INTEREST OF
THE CHILDREN FOR THEM TO RESIDE WITH
YOU TWO?
THE WITNESS: DUE TO THE MEDICAL
CONDITIONS OF BOTH PARENTS, THEY ARE
JUST NOT ABLE TO MEET THE NEEDS OF THE
CHILDREN.
THE COURT: DO THE PARENTS RESIDE
WITH YOU?
THE WITNESS: THEY - THEY DID FOR
EIGHT MONTHS. THEY NOW HAVE THEIR OWN
HOME.
THE COURT:

OKAY.

THE WITNESS: BUT WHEN THE CHIL­
DREN HAVE VISITED THE PARENTS IN THE PAST,
WE HAVE HAD TO HAVE A [12] THIRD PARTY AC­
COMPANY THEM FOR OVERNIGHTS.
THE COURT: AND THEN HOW DO YOU
AND YOUR HUSBAND INTERACT WITH THE
CHILDREN? AND - AND HOW ARE THOSE RELA­
TIONSHIPS WITH THE TWO OF YOU?

App. 77
THE WITNESS: I THINK IT’S GREAT,
YOU KNOW.
THE COURT: AND YOU’RE WILLING
AND ABLE TO TAKE THIS ON?
THE WITNESS: YES, MA’AM.
THE COURT: NO MATTER HOW LONG IT
LASTS?
THE WITNESS: THAT IS CORRECT.
THE COURT: AND ARE
HOW ARE
YOUR AND YOUR HUSBAND’S MENTAL AND
PHYSICAL HEALTH?
THE WITNESS: I THINK WE’RE IN
GREAT SHAPE. THE NORMAL AGING PROCESS,
YOU KNOW, THE FEW ACHES AND SO FORTH
THAT GO ALONG WITH GETTING OLDER. BUT
WE’RE FINE.
THE COURT: AND THIS AGE CHILDREN,
YOU KNOW, IT’S GOING TO PROBABLY REQUIRE
A LOT OF ENERGY.
THE WITNESS:

THEY KEEP US YOUNG.

THE COURT: OKAY. AND I’M JUST GO­
ING THROUGH THE STATUTE NOW.
MR. MCCRACKEN: THAT’S FINE.
THE COURT: BUT I DO HAVE TO ASK.
HAS THERE BEEN ANY DOMESTIC VIOLENCE IN

App. 78
YOUR HOME WITH EITHER YOU OR YOUR HUS­
BAND INVOLVED?
THE WITNESS: NO.
[13] THE COURT: OKAY
THE WITNESS: NO.
THE COURT: AND HAS THERE BEEN
ANY TIME DURING THE LAST ONE YEAR THAT
THESE CHILDREN HAVE BEEN PRIMARILY
CARED FOR BY THEIR PARENTS?
THE WITNESS: NO, YOUR HONOR.
THE COURT: OKAY. AND SO, I AM GOING
TO GRANT THE DE FACTO CUSTODY AND STA­
TUS TO YOU AND YOUR HUSBAND AND ALSO
PERMANENT CUSTODY AT THIS TIME. AND IT
DOES INDICATE THAT THE AGREEMENT’S BEEN
FILED WITH THE COURT.
BUT I KNOW THAT THERE ARE FINDINGS
REQUIRED AS WELL. SO IF YOU’LL JUST DRAFT
THE ORDERS, PLEASE, MR. MCCRACKEN MR. MCCRACKEN: OKAY.
THE COURT: - FROM TODAY. AND IT
WILL NEED TO BE - SINCE IT IS THE FINAL
WITH REGARD TO THAT PETITION, IT WILL
NEED TO SAY JUDGEMENT OR DECREE.
MR. MCCRACKEN: I’LL BE GLAD TO DO
THAT, YOUR HONOR.

App. 79
THE COURT: OKAY. OKAY. THAT CON­
CLUDES TODAY’S PROCEEDING MR. MCCRACKEN: OKAY.
THE COURT: - IN THE NELSON VERSUS
SHARP.
MR. MCCRACKEN: AS - JUDGE, AS FAR
AS CHILD SUPPORT, DO YOU EVEN WANT ME TO
ADDRESS THAT OR [14] THE COURT: JUST INDICATE IT AS
ZERO.
MR. MCCRACKEN: OKAY. BE GLAD TO.
THE COURT:

OKAY.

MR. MCCRACKEN: THANK YOU, JUDGE.
THE WITNESS: THANK YOU.
THE COURT: THANK YOU.
(PROCEEDINGS CONCLUDED.)
[15] CERTIFICATE
I, FELICIA B. THOMAS, CERTIFIED COURT
REPORTER, DO HEREBY CERTIFY THAT THE
FOREGOING HEARING WAS TRANSCRIBED BY
ME FROM DVD FOR THE PURPOSE IN THE CAP­
TION STATED; AND THAT THE FOREGOING IS A
FULL, TRUE AND COMPLETE TRANSCRIPT OF
SAID HEARING SO GIVEN TO THE BEST OF MY
ABILITY.

App. 80
I FURTHER CERTIFY THAT I AM NEITHER
OF COUNSEL, NOR OF KIN TO EITHER OF THE
PARTIES TO THIS ACTION, AND AM IN NO WAY
INTERESTED IN THE OUTCOME OF SAID AC­
TION.
/s/ Felicia B. Thomas
FELICIA B. THOMAS, CCR
NOTARY PUBLIC

App. 81
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Constitutions’ full faith and credit clause, Article
IV section 1, states:
Full faith and Credit shall be given in each State
to the public Acts, records, and judicial proceed­
ings of every other State, And the Congress may
by general Laws prescribe the Manner in which
such Acts, Records and Proceedings shall be
proved, and the Effect thereof.
U.S. CONST, art. IV §1

The Parental Kidnapping Prevention Act 28 U.S. Code
§ 1738A, establishes national standards for the asser­
tion of child custody jurisdiction providing full faith
and credit given to child custody determinations as fol­
lows:
(a) The appropriate authorities of every State
shall enforce according to its terms, and shall not
modify except as provided in subsections (f), (g),
and (h) of this section, any custody determination
or visitation determination made consistently
with the provisions of this section by a court of an­
other State.
(b) As used in this section, the term (1) “child” means a person under the age of eight­
een;

App. 82
(2) “contestant” means a person, including a par­
ent or grandparent, who claims a right to custody
or visitation of a child;
(3) “custody determination” means a judgment,
decree, or other order of a court providing for the
custody of a child, and includes permanent and
temporary orders, and initial orders and modifica­
tions;
(4) “home State” means the State in which, im­
mediately preceding the time involved, the child
lived with his parents, a parent, or a person acting
as parent, for at least six consecutive months, and
in the case of a child less than six months old, the
State in which the child lived from birth with any
of such persons. Periods of temporary absence of
any of such persons are counted as part of the sixmonth or other period;
(5) “modification” and “modify” refer to a custody
or visitation determination which modifies, re­
places, supersedes, or otherwise is made subse­
quent to, a prior custody or visitation
determination concerning the same child, whether
made by the same court or not;
(6) “person acting as a parent” means a person,
other than a parent, who has physical custody of a
child and who has either been awarded custody by
a court or claims a right to custody;
(7) “physical custody” means actual possession
and control of a child;
(8) “State” means a State of the United States,
the District of Columbia, the Commonwealth of

App. 83
Puerto Rico, or a territory or possession of the
United States; and
(9) “visitation determination” means a judg­
ment, decree, or other order of a court providing
for the visitation of a child and includes perma­
nent and temporary orders and initial orders and
modifications.
(c) A child custody or visitation determination
made by a court of a State is consistent with the
provisions of this section only if (1) such court has jurisdiction under the law of
such State; and
(2) one of the following conditions is met:
(A) such State (i) is the home State of the child
on the date of the commencement of the proceed­
ing, or (ii) had been the child’s home State within
six months before the date of the commencement
of the proceeding and the child is absent from such
State because of his removal or retention by a con­
testant or for other reasons, and a contestant con­
tinues to live in such State;
(B)
(i) it appears that no other State would have ju­
risdiction under subparagraph (A), and (ii) it is in
the best interest of the child that a court of such
State assume jurisdiction because (I) the child and
his parents, or the child and at least one contest­
ant, have a significant connection with such State
other than mere physical presence in such State,
and (II) there is available in such State substan­
tial evidence concerning the child’s present or

App. 84
future care, protection, training, and personal re­
lationships;
(C) the child is physically present in such State
and (i) the child has been abandoned, or (ii) it is
necessary in an emergency to protect the child be­
cause the child, a sibling, or parent of the child has
been subjected to or threatened with mistreat­
ment or abuse;
(D)
(i) it appears that no other State would have ju­
risdiction under subparagraph (A), (B), (C), or (E),
or another State has declined to exercise jurisdic­
tion on the ground that the State whose jurisdic­
tion is in issue is the more appropriate forum to
determine the custody or visitation of the child,
and (ii) it is in the best interest of the child that
such court assume jurisdiction; or
(E) the court has continuing jurisdiction pursu­
ant to subsection (d) of this section.
(d) The jurisdiction of a court of a State which
has made a child custody or visitation determina­
tion consistently with the provisions of this section
continues as long as the requirement of subsection
(c)(1) of this section continues to be met and such
State remains the residence of the child or of any
contestant.
(e) Before a child custody or visitation determi­
nation is made, reasonable notice and opportunity
to be heard shall be given to the contestants, any
parent whose parental rights have not been previ­
ously terminated and any person who has physical
custody of a child.

App. 85
(f) A court of a State may modify a determina­
tion of the custody of the same child made by a
court of another State, if (1) it has jurisdiction to make such a child cus­
tody determination; and
(2) the court of the other State no longer has ju­
risdiction, or it has declined to exercise such juris­
diction to modify such determination.
(g) A court of a State shall not exercise jurisdic­
tion in any proceeding for a custody or visitation
determination commenced during the pendency of
a proceeding in a court of another State where
such court of that other State is exercising juris­
diction consistently with the provisions of this sec­
tion to make a custody or visitation determination.
(h) A court of a State may not modify a visitation
determination made by a court of another State
unless the court of the other State no longer has
jurisdiction to modify such determination or has
declined to exercise jurisdiction to modify such de­
termination.
28 U.S.C. A. § 1738A

The Fourteenth Amendment to the United States Con­
stitution provides, in pertinent part:
“No state shall make or enforce any law which
shall abridge the privileges or immunities of citi­
zens of the United States; nor shall any state de­
prive any person of life, liberty, or property,
without due process of law; nor deny to any person

App. 86
within its jurisdiction the equal protection of the
laws.”
U.S. CONST, amend. XIV.

The Supremacy Clause found in Article VI, Paragraph
2 of the United States Constitution provides, in perti­
nent part:
“This Constitution, and the laws of the United
States which shall be made in pursuance thereof;
and all treaties made, or which shall be made, un­
der the authority of the United States, shall be the
supreme law of the land; and the judges in every
state shall be bound thereby, anything in the Con­
stitution or laws of any State to the contrary not­
withstanding.”
U.S. CONST. Article VI, Clause 2.

The Uniform Child Custody Jurisdiction Enforcement
Act (UCCJEA) provides, in pertinent part:
Section 103. Proceedings Governed by other law.
“This [Act] does not govern an adoption proceeding
or a proceeding pertaining to the authorization of
emergency medical care for a child.”
UCCJEA § 103

App. 87
Tennessee Code Annotated (T.C.A.) § 36-l-116(f)(l)
Upon the filing of the petition, the court shall have ex­
clusive jurisdiction of all matters pertaining to the
child, including the establishment of paternity of a
child pursuant to chapter 2, part 3 of this title, except
for allegations of delinquency, unruliness or truancy of
the child pursuant to title 37; provided, that, unless a
party has filed an intervening petition to an existing
adoption petition concerning a child who is in the phys­
ical custody of the original petitioners, the court shall
have no jurisdiction to issue any orders granting cus­
tody or guardianship of the child to the petitioners or
to the intervening petitioners or granting an adoption
of the child to the petitioners or to the intervening pe­
titioners unless the petition affirmatively states, and
the court finds in its order, that the petitioners have
physical custody of the child at the time of the filing of
the petition, entry of the order of guardianship, or en­
try of the order of adoption, or unless the petitioners
otherwise meet the requirements of §36-l-lll(d)(6).
T.C.A. § 36-l-116(f)(l)

T.C.A. § 36-1-116(h) The filing of the petition shall be
deemed the commencement of a custody proceeding for
purposes of the Uniform Child Custody Jurisdiction
and Enforcement Act (UCCJEA), compiled in chapter
6, part 2 of this title. T.C.A. § 36-1-116(h)

App. 88
T.C.A. § 36-6-201 This part may be cited as the Uni­
form Child Custody Jurisdiction and Enforcement Act.
T.C.A. § 36-6-201

T.C.A. § 36-6-216(a) (a) Except as otherwise provided
in § Code Sec. 36-6-219”>36-6-219, a court of this state
has jurisdiction to make an initial child custody de­
termination only if: (1) This state is the home state
of the child on the date of the commencement of the
proceeding, or was the home state of the child within
six (6) months before the commencement of the pro­
ceeding and the child is absent from this state but a
parent or person acting as a parent continues to live in
this state; (2) A court of another state does not have
jurisdiction under subdivision (a)(1), or a court of the
home state of the child has declined to exercise juris­
diction on the ground that this state is the more ap­
propriate forum under §§ 36-6-221 or 36-6-222, and:
(A) The child and the child’s parents, or the child and
at least one (1) parent or a person acting as a parent,
have a significant connection with this state other than
mere physical presence; and (B) Substantial evidence
is available in this state concerning the child’s care,
protection, training, and personal relationships;(3)
All courts having jurisdiction under subdivision
(a)(1) or (2) have declined to exercise jurisdiction on
the ground that a court of this state is the more ap­
propriate forum to determine the custody of the child
under §§ 36-6-221 or 36-6-222; or (4) No court of any
other state would have jurisdiction under the criteria

App. 89
specified in subdivision (a)(1), (2), or (3). (b) Subsec­
tion (a) is the exclusive jurisdictional basis for making
a child-custody determination by a court of this state,
(c) Physical presence of, or personal jurisdiction over,
a party or a child is not necessary or sufficient to
make a child-custody determination. T.C.A. § 36-6216(a)

Kentucky Revised Statutes (K.R.S.) 199.470(1). Ay
person who is eighteen (18) years of age and who is a
resident of this state or who has resided in this state
for twelve (12) months next before filing may file a pe­
tition for leave to adopt a child in the Circuit Court of
the county in which the petitioner resides. Ky. Rev.
Stat. 199.470(1)

KRS § 403.800. Definitions for KRS 403.800 to
403.880
As used in KRS 403.800 to 403.880:
(1) “Abandoned” means left without provision for
reasonable and necessary care or supervision;
(2) “Child” means an individual who has not at­
tained eighteen (18) years of age;
(3) “Child custody determination” means a judg­
ment, decree, or other order of a court providing
for the legal custody, physical custody, or visitation
with respect to a child. The term includes perma­
nent, temporary, initial, and modification orders.

App. 90
The term does not include an order relating to
child support or other monetary obligation of an
individual;
(4) “Child custody proceeding” means a proceed­
ing in which legal custody, physical custody, or vis­
itation with respect to a child is an issue. The term
includes a proceeding for divorce, separation, ne­
glect, abuse, dependency, guardianship, paternity,
termination of parental rights, and protection
from domestic violence, in which the issue may
appear. The term does not include a proceeding in­
volving juvenile delinquency, contractual emanci­
pation, or enforcement under Article 3;
(5) “Commencement” means the filing of the first
pleading in a proceeding;
(6) “Court” means an entity authorized under
the law of a state to establish, enforce, or modify a
child custody determination;
(7) “Home state” means the state in which a child
lived with a parent or a person acting as a parent
for at least six (6) consecutive months immediately
before the commencement of a child custody pro­
ceeding. In the case of a child less than six (6)
months of age, the term means the state in which
the child lived from birth with any of the persons
mentioned. A period of temporary absence of any
of the mentioned persons is part of the period;
(8) “Initial determination” means the first child
custody determination concerning a particular
child;

App. 91
(9) “Issuing court” means the court that makes a
child custody determination for which enforce­
ment is sought under KRS 403.800 to 403.880;
(10) “Issuing state” means the state in which a
child custody determination is made;
(11) “Modification” means a child custody deter­
mination that changes, replaces, supersedes, or is
otherwise made after a previous determination
concerning the same child, whether or not it is
made by the court that made the previous deter­
mination;
(12) “Person” means an individual, corporation,
business trust, estate, trust, partnership, limited
liability company, association, joint venture, gov­
ernment; governmental subdivision, agency, or in­
strumentality; public corporation; or any other
legal or commercial entity;
(13) “Person acting as a parent” means a person,
other than a parent, who:
(a) Has physical custody of the child or has had
physical custody for a period of six (6) consecutive
months, including any temporary absence, within
one (1) year immediately before the commence­
ment of a child custody proceeding; and
(b) Has been awarded legal custody by a court or
claims a right to legal custody under the law of
this state;
(14) “Physical custody” means the physical care
and supervision of a child;
(15) “State” means a state of the United States,
the District of Columbia, Puerto Rico, the United

App. 92
States Virgin Islands, or any territory or insular
possession subject to the jurisdiction of the United
States;
(16) “Tribe” means an Indian tribe or band, or
Alaskan Native village, which is recognized by fed­
eral law or formally acknowledged by a state; and
(17) “Warrant” means an order issued by a court
authorizing law enforcement officers to take phys­
ical custody of a child.
Ky. Rev. Stat.§ 403.800.

K.R.S. § 403.802. Proceedings governed by other
law.
KRS 403.800 to 403.880 shall not govern an adop­
tion proceeding or a proceeding pertaining to the
authorization of emergency medical care for a
child.
Ky. Rev. Stat. § 403.802

K.R.S. 403.270 Custodial issues - Best interests of
child shall determine - Rebuttable presumption
that joint custody and equally shared parenting
time is in child’s best interests - De facto custo­
dian.
(l)(a) As used in this chapter and KRS 405.020,
unless the context requires otherwise, “de facto
custodian” means a person who has been shown by

App. 93
clear and convincing evidence to have been the pri­
mary caregiver for, and financial supporter of, a
child who has resided with the person for a period
of six (6) months or more if the child is under three
(3) years of age and for a period of one (1) year or
more if the child is three (3) years of age or older
or has been placed by the Department for Commu­
nity Based Services. Any period of time after a le­
gal proceeding has been commenced by a parent
seeking to regain custody of the child shall not be
included in determining whether the child has re­
sided with the person for the required minimum
period.
(b) A person shall not be a de facto custodian un­
til a court determines by clear and convincing evi­
dence that the person meets the definition of de
facto custodian established in paragraph (a) of this
subsection. Once a court determines that a person
meets the definition of de facto custodian, the
court shall give the person the same standing in
custody matters that is given to each parent under
this section and KRS 403.280, 403.340, 403.350,
403.822, and 405.020.
(2) The court shall determine custody in accord­
ance with the best interests of the child and equal
consideration shall be given to each parent and to
any de facto custodian. Subject to KRS 403.315,
there shall be a presumption, rebuttable by a pre­
ponderance of evidence, that joint custody and
equally shared parenting time is in the best inter­
est of the child. If a deviation from equal parenting
time is warranted, the court shall construct a par­
enting time schedule which maximizes the time
each parent or de facto custodian has with the

App. 94
child and is consistent with ensuring the child’s
welfare. The court shall consider all relevant fac­
tors including:
(a) The wishes of the child’s parent or parents,
and any de facto custodian, as to his or her cus­
tody;
(b) The wishes of the child as to his or her custo­
dian, with due consideration given to the influence
a parent or de facto custodian may have over the
child’s wishes;
(c) The interaction and interrelationship of the
child with his or her parent or parents, his or her
siblings, and any other person who may signifi­
cantly affect the child’s best interests;
(d) The motivation of the adults participating in
the custody proceeding;
(e) The child’s adjustment and continuing prox­
imity to his or her home, school, and community;
(f) The mental and physical health of all individ­
uals involved;
(g) A finding by the court that domestic violence
and abuse, as defined in KRS 403.720, has been
committed by one (1) of the parties against a child
of the parties or against another party. The court
shall determine the extent to which the domestic
violence and abuse has affected the child and the
child’s relationship to each party, with due consid­
eration given to efforts made by a party toward the
completion of any domestic violence treatment,
counseling, or program;

App. 95
(h) The extent to which the child has been cared
for, nurtured, and supported by any de facto custo­
dian;
(i) The intent of the parent or parents in placing
the child with a de facto custodian;
(j) The circumstances under which the child was
placed or allowed to remain in the custody of a de
facto custodian, including whether the parent now
seeking custody was previously prevented from
doing so as a result of domestic violence as defined
in KRS 403.720 and whether the child was placed
with a de facto custodian to allow the parent now
seeking custody to seek employment, work, or at­
tend school; and
(k) The likelihood a party will allow the child fre­
quent, meaningful, and continuing contact with
the other parent or de facto custodian, except that
the court shall not consider this likelihood if there
is a finding that the other parent or de facto cus­
todian engaged in domestic violence and abuse, as
defined in KRS 403.720, against the party or a
child and that a continuing relationship with the
other parent will endanger the health or safety of
either that party or the child.
(3) The abandonment of the family residence by
a custodial party shall not be considered where
said party was physically harmed or was seriously
threatened with physical harm by his or her
spouse, when such harm or threat of harm was
causally related to the abandonment.
(4) If the court grants custody to a de facto cus­
todian, the de facto custodian shall have legal

App. 96
custody under the laws of the Commonwealth. Ky.
Rev. Stat. 403.270.

KRS 403.340 kids removed in contravention of best in­
terest hearing
Modification of custody decree - Modification
based on active duty deployment to revert back
on parent or custodian’s return.
(1) As used in this section, “custody” means sole
or joint custody, whether ordered by a court or
agreed to by the parties.
(2) No motion to modify a custody decree shall be
made earlier than two (2) years after its date, un­
less the court permits it to be made on the basis of
affidavits that there is reason to believe that:
(a) The child’s present environment may endan­
ger seriously his physical, mental, moral, or emo­
tional health; or
(b) The custodian appointed under the prior de­
cree has placed the child with a de facto custodian.
(3) If a court of this state has jurisdiction pursu­
ant to the Uniform Child Custody Jurisdiction Act,
the court shall not modify a prior custody decree
unless after hearing it finds, upon the basis of facts
that have arisen since the prior decree or that
were unknown to the court at the time of entry of
the prior decree, that a change has occurred in the
circumstances of the child or his custodian, and
that the modification is necessary to serve the best

App. 97
interests of the child. When determining if a
change has occurred and whether a modification
of custody is in the best interests of the child, the
court shall consider the following:
(a) Whether the custodian agrees to the modifi­
cation;
(b) Whether the child has been integrated into
the family of the petitioner with consent of the cus­
todian;
(c) The factors set forth in KRS 403.270(2) to de­
termine the best interests of the child;
(d) Whether the child’s present environment en­
dangers seriously his physical, mental, moral, or
emotional health;
(e) Whether the harm likely to be caused by a
change of environment is outweighed by its ad­
vantages to him; and
(f) Whether the custodian has placed the child
with a de facto custodian.
(4) In determining whether a child’s present en­
vironment may endanger seriously his physical,
mental, moral, or emotional health, the court shall
consider all relevant factors, including, but not
limited to:
(a) The interaction and interrelationship of the
child with his parent or parents, his de facto cus­
todian, his siblings, and any other person who may
significantly affect the child’s best interests;
(b) The mental and physical health of all individ­
uals involved;

App. 98
(c) Repeated or substantial failure, without good
cause as specified in KRS 403.240, of either parent
to observe visitation, child support, or other provi­
sions of the decree which affect the child, except
that modification of custody orders shall not be
made solely on the basis of failure to comply with
visitation or child support provisions, or on the ba­
sis of which parent is more likely to allow visita­
tion or pay child support;
(d) If domestic violence and abuse, as defined in
KRS 403.720, is found by the court to exist, the ex­
tent to which the domestic violence and abuse has
affected the child and the child’s relationship to
both parents.
(5) (a) Except as provided in paragraph (b) of this
subsection, any court-ordered modification of a
child custody decree, based in whole or in part on:
1. The active duty of a parent or a de facto custo­
dian as a regular member of the United States
Armed Forces deployed outside the United States;
or
2. Any federal active duty of a parent or a de
facto custodian as a member of a state National
Guard or a Reserve component;
shall be temporary and shall revert back to the
previous child custody decree at the end of the de­
ployment outside the United States or the federal
active duty, as appropriate.
(b) A parent or de facto custodian identified in
paragraph (a) of this subsection may consent to a
modification of a child custody decree that contin­
ues past the end of the deployment outside the

App. 99
United States or the federal active duty, as appro­
priate.
(6) Subject to KRS 403.315, if the court orders a
modification of a child custody decree, there shall
be a presumption, rebuttable by a preponderance
of evidence, that it is in the best interest of the
child for the parents to have joint custody and
share equally in parenting time. If a deviation
from equal parenting time is warranted, the court
shall construct a parenting time schedule which
maximizes the time each parent or de facto custo­
dian has with the child and is consistent with en­
suring the child’s welfare.
(7) Attorney fees and costs shall be assessed
against a party seeking modification if the court
finds that the modification action is vexatious and
constitutes harassment.
Ky. Rev. Stat. 403.340

KRS 199.470(1) Petition for adoption of child - Parties
- Residence requirement - Approval of secretary - Ex­
ceptions. (1) Any person who is eighteen (18) years of
age and who is a resident of this state or who has re­
sided in this state for twelve (12) months next before
filing may file a petition for leave to adopt a child in
the Circuit Court of the county in which the petitioner
resides. Ky. Rev. Stat. 199.470(1)

App. 100
Code of Conduct for United States Judges provides, in
pertinent part:
Canon 1: A Judge Should Uphold the Integrity and
Independence of the Judiciary
An independent and honorable judiciary is indis­
pensable to justice in our society. A judge should
maintain and enforce high standards of conduct
and should personally observe those standards, so
that the integrity and independence of the judici­
ary may be preserved. The provisions of this Code
should be construed and applied to further that
objective.
Canon 2: A Judge Should Avoid Impropriety
and the Appearance of Impropriety in All Ac­
tivities
A. Respect for Law. A judge should respect and
comply with the law and should act at all times in
a manner that promotes public confidence in the
integrity and impartiality of the judiciary.
B. Outside Influence. A judge should not allow
family, social, political, financial, or other relation­
ships to influence judicial conduct or judgment. A
judge should neither lend the prestige of the judi­
cial office to advance the private interests of the
judge or others nor convey or permit others to con­
vey the impression that they are in a special posi­
tion to influence the judge. A judge should not
testify voluntarily as a character witness.
Canon 3: A Judge Should Perform the Duties
of the Office Fairly, Impartially and Dili­
gently

App. 101
The duties of judicial office take precedence over
all other activities. The judge should perform
those duties with respect for others, and should
not engage in behavior that is harassing, abusive,
prejudiced, or biased. The judge should adhere to
the following standards:
A. Adjudicative Responsibilities. Guide to Judi­
ciary Policy, Vol. 2A, Ch. 2 Page 6
(4) A judge should accord to every person who
has a legal interest in a proceeding, and that per­
son’s lawyer, the full right to be heard according
to law. Except as set out below, a judge should not
initiate, permit, or consider ex parte communica­
tions or consider other communications concern­
ing a pending or impending matter that are made
outside the presence of the parties or their law­
yers. If a judge receives an unauthorized ex parte
communication bearing on the substance of a mat­
ter, the judge should promptly notify the parties of
the subject matter of the communication and allow
the parties an opportunity to respond, if re­
quested.
B. Administrative Responsibilities.
(1) A judge should diligently discharge adminis­
trative responsibilities, maintain professional
competence in judicial administration, and facili­
tate the performance of the administrative respon­
sibilities of other judges and court personnel.
(6) A judge should take appropriate action
upon receipt of reliable information indicating
the likelihood that a judge’s conduct contravened
this Code, that a judicial employee’s conduct

App. 102
contravened the Code of Conduct for Judicial Em­
ployees, or that a lawyer violated applicable rules
of professional conduct.
C. Disqualification.
(1) A judge shall disqualify himself or herself in
a proceeding in which the judge’s impartiality
might reasonably be questioned, including but not
limited to instances in which:
(a) the judge has a personal bias or prejudice
concerning a party, or personal knowledge of dis­
puted evidentiary facts concerning the proceeding;
(ii) acting as a lawyer in the proceeding;
(iii) known by the judge to have an interest that
could be substantially affected by the outcome of
the proceeding; or
(e) the judge has served in governmental em­
ployment and in that capacity participated as a
judge (in a previous judicial position), counsel, ad­
visor, or material witness concerning the proceed­
ing or has expressed an opinion concerning the
merits of the particular case in controversy. Code
of Conduct for U.S. Judges (effective March 12,
2019)

